NO. 20-18

In the
Supreme Court of the United States
ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar, all
counsel have consented to electronic service, and that, on this 13th day of August,
2020, copies of the Brief of National Association of Criminal Defense Lawyers and
California Attorneys for Criminal Justice as Amici Curiae in Support of Petitioner
were sent to:
Brian Halligan Fletcher
Stanford Law School
Supreme Court Clinic
559 Nathan Abbott Way
Stanford, CA 94305
bfletcher@law.stanford.edu

Samuel Thomas Harbourt
California Department of Justice
Office of the Solicitor General
455 Golden Gate Ave Suite 11000
San Francisco, CA 94102
Samuel.Harbourt@doj.ca.gov
Respectfully submitted,

Arn Jacobsen

